           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    IMPACT OF NONIMMIGRANTS
         WHO CONTINUE
      WORKING AFTER THEIR
   IMMIGRATION STATUS EXPIRES

  September 2005      A-08-05-15073




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 9, 2005                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Impact of Nonimmigrants Who Continue Working After Their Immigration Status Expires
        (A-08-05-15073)


        OBJECTIVE
        Our objective was to assess the extent to which nonimmigrants may have continued
        working after their immigration status expired and the impact such unauthorized work
        may have on the Social Security Administration (SSA).

        BACKGROUND
        Thousands of nonimmigrants1 come to the United States each year and obtain Social
        Security numbers (SSN). Although the Department of Homeland Security (DHS) admits
        nonimmigrants for a limited time, DHS estimated that, as of January 2000, 2.3 million
        nonimmigrants had overstayed their authorized periods of admission.2 Motivated by
        economic opportunities, some nonimmigrants may remain in the United States and
        continue working without DHS authorization, while others leave the country and
        someone else may use their SSNs to obtain employment.

        We recognize SSA has no specific role in immigration laws and enforcement.
        Additionally, we acknowledge that issues surrounding immigration laws and
        enforcement are complex, with no simple resolution. Nevertheless, unauthorized work
        by nonimmigrants may require that SSA pay benefits to these individuals in the future.
        According to section 211 of the Social Security Protection Act of 2004, P.L. 108-203,
        Title II benefits may be paid to a noncitizen who has been issued an SSN indicating

        1
         A nonimmigrant is a foreign-born individual who is granted temporary admission to the United States for
        a specific purpose. Examples of nonimmigrants are foreign government officials, visitors for business or
        pleasure, temporary workers and trainees, students, exchange visitors, and fiancés of U.S. citizens.
        2
         A Government Accountability Office (GAO) report, Overstay Tracking: A Key Component of Homeland
        Security and a Layered Defense (GAO-04-82, May 2004), disclosed that this estimate may be
        understated.
Page 2 – The Commissioner


authorization to work in the United States and meets all other eligibility requirements.3
As such, nonimmigrants who obtain SSNs based on temporary work authorization may
be able to obtain Title II benefits if they continue working in the United States beyond
the date authorized by DHS.

To accomplish our objective, we identified a population of 794,678 nonimmigrants to
whom SSA assigned original SSNs during Fiscal Year (FY) 2000. From this population,
we randomly selected a sample of 275 nonimmigrants to determine whether these
individuals may have continued to work in the U.S. economy after their immigration
status expired. For each of the sampled cases, we verified the individual’s immigration
status with DHS or the Department of State (State).4 Because of DHS’ responsibility for
immigration enforcement, we will provide a copy of this report to its Inspector General.

We also analyzed the earnings reported to SSA for nonimmigrants whose immigration
status expired. We relied primarily on SSA’s Master Earnings File (MEF) to perform this
test and determined the MEF data were sufficiently reliable given the audit objective and
use of the data. We also discussed possible causes of unauthorized work by
nonimmigrants with Office of Disability and Income Security Programs personnel.
Appendix B includes a detailed description of our scope, methodology and sample
appraisal.

RESULTS OF REVIEW
Based on data obtained from DHS and/or State for the individuals in our sample, we
estimate that 31,787 nonimmigrants who obtained SSNs during FY 2000 either
continued working after their immigration status expired or someone else may have
used their SSNs to work after they left the country. This figure represents 4 percent of
the original SSNs SSA assigned to nonimmigrants during this period.5 This estimate
may be conservative because complete earnings information was not available for
11 percent of the nonimmigrants in our sample whose immigration status had expired.6
Furthermore, some nonimmigrants in our sample may have remained in the country


3
 SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the Social
Security Act.
4
 We did not determine the reliability of the information systems at these agencies. Accordingly, any
conclusions or estimates made in this report are qualified by the statement “based on data obtained from
DHS and/or State.”
5
 We identified 11 (4 percent) instances in which nonimmigrants either worked after their immigration
status expired or left the country and someone else used their SSNs to work from our review of
275 sample cases.
6
  We identified 29 (11 percent) individuals in our review of 275 sample cases whose immigration status
expired during the conduct of our audit (August 2004 through April 2005). However, because of a lag in
the annual wage reporting cycle, not all 2004 earnings and no 2005 wages had been reported to SSA at
the time of our audit.
Page 3 – The Commissioner


after their immigration status expired and worked under someone else’s name and/or
SSN or did not report their earnings. As such, we could not quantify such activity.

Unauthorized work by nonimmigrants impacts SSA because it weakens SSN integrity
and may require that the Agency pay future benefits to these individuals. In addition,
nonimmigrants who continue working after their immigration status expires potentially
could affect homeland security because they may obtain employment in sensitive areas.
To identify and help reduce the number of nonimmigrants who continue working after
their immigration status expires, we believe SSA should continue to coordinate with
DHS regarding work authorization issues, including the potential for data sharing
activities.

NONIMMIGRANTS CONTINUED WORKING AFTER THEIR IMMIGRATION STATUS
EXPIRED OR SOMEONE ELSE MAY HAVE USED THEIR SSNS TO WORK

Based on data provided by DHS and/or State, of the 794,678 nonimmigrants who
obtained SSNs during FY 2000, we estimate 31,787 (4 percent) worked after their
immigration status expired or someone else may have used their SSNs to work after the
numberholder left the country. As discussed above, we believe this is a conservative
estimate because complete earnings information was not available for some
nonimmigrants in our sample whose immigration status expired during the conduct of
our audit.

Should the current situation remain unchanged, we estimate that, over the next 5 years,
almost 159,000 nonimmigrants will continue working after their immigration status
expires.7 Given DHS’ interest in better monitoring nonimmigrants’ entrance into and exit
from the United States (for homeland security purposes), we believe this information is
significant.8 Additionally, SSA’s potential responsibility for paying Title II benefits to
these individuals provides an important motive for SSA to be proactive in coordinating
with DHS regarding a strategy for addressing the “visa overstayer” issue.

We believe the following instances in which nonimmigrants either continued working
after their immigration status expired or someone else may have used their SSNs to
work after they left the country illustrate SSA’s exposure to such activity. We referred
these cases to our Office of Investigations. Our Office of Investigations reviewed these
allegations and determined that none of the subjects were receiving Title II or Title XVI
benefits.9 Accordingly, our investigators referred these cases to DHS' Bureau of
Immigration and Customs Enforcement for further investigation.

7
 We based this estimate on the projected number of nonimmigrants who worked after their immigration
status expired or someone else may have used their SSNs to work after they left the country, and
projected it over the next 5 years.
8
  DHS established a program—the U.S. Visitor and Immigrant Status Indicator Technology (US-VISIT)—
intended to enhance national security by collecting, maintaining, and sharing information on individuals
who enter and exit the United States.
9
    SSA administers the Supplemental Security Income Program under Title XVI of the Social Security Act.
Page 4 – The Commissioner


•     In September 1999, the Immigration and Naturalization Service (INS) granted
      temporary work authorization to a 20-year-old female.10 SSA assigned her a
      work-authorized SSN in November 1999. An Immigration Judge ordered her
      deported in 2002. However, DHS had no record of her leaving the country.11 She
      had recorded earnings in 2003 and 2004.

•     A 23-year-old female entered the country in November 1999 as a temporary worker.
      SSA assigned her a work-authorized SSN in February 2000. Although her
      nonimmigrant status expired in May 2000, DHS had no record of her leaving the
      country. She had recorded earnings in 2002 and 2003.

•     A 25-year-old male entered the United States in May 2000 as an intracompany
      transferee. SSA assigned him a work-authorized SSN in June 2000. Although his
      immigration status expired in May 2001, DHS records indicated he did not leave the
      country until February 2002. Additionally, it appears someone else may have used
      his SSN to work because he had recorded earnings in 2003, after he purportedly left
      the country.

•     A 23-year-old man initially entered the United States in July 2000 as an emergency
      farm worker. SSA assigned him a work-authorized SSN in September 2000.
      Although his immigration status expired in November 2002, DHS had no record of
      him leaving the country. He had recorded earnings in 2003.

OPPORTUNITY TO REDUCE SSA’S RISK FROM NONIMMIGRANTS WHO
CONTINUE WORKING AFTER THEIR IMMIGRATION STATUS EXPIRES

To its credit, SSA recognizes the impact unauthorized work has on its programs and
has identified a number of initiatives to reduce such activity. For example, SSA
supports DHS in a joint initiative, known as the Basic Pilot. This initiative is designed to
assist participating employers in confirming employment eligibility for newly hired
employees. In addition, the Agency sends an annual report to DHS about earnings
reported to SSA on SSNs issued to noncitizens not authorized to work in the United
States (that is, nonwork SSNs). We believe such initiatives enhance SSN integrity.

Unauthorized work by nonimmigrants impacts SSA because it weakens SSN integrity
and may require the Agency to pay future benefits to individuals who misuse the SSN to
work in the United States without appropriate authorization. We believe nonimmigrants
who continue working after their immigration status expires misuse SSNs because
these numbers are “valid for work only with DHS authorization,” as shown on the SSN
card. SSN misuse also occurs when other individuals use nonimmigrants’ SSNs to

10
     INS’ functions were transferred to DHS on March 1, 2003.
11
  A GAO report, Immigration Enforcement: DHS Has Incorporated Immigration Enforcement Objectives
and Is Addressing Future Planning Requirements (GAO-05-66, October 2004), disclosed there were
approximately 350,000 to 480,000 nonimmigrants who had been ordered to leave the United States, but
DHS could not verify that they had actually departed.
Page 5 – The Commissioner


work after they leave the country. Unauthorized work by nonimmigrants may also
require SSA to pay future benefits to these individuals. That is, nonimmigrants who
obtain SSNs based on temporary work authorization may be able to obtain Title II
benefits if they continue working in the United States beyond the date authorized by
DHS. In addition, nonimmigrants who overstay their authorized periods of admission
can affect homeland security because they may obtain employment in sensitive areas,
such as airports, hospitals, or mass transit systems.

SSA has an opportunity to further enhance SSN integrity and reduce its risk from
nonimmigrants who continue working after their immigration status expires. We believe
SSA should continue to coordinate with DHS regarding work authorization issues. This
could include the potential for data sharing activities to identify and reduce the number
of nonimmigrants who continue working after their immigration status expires. We
encourage SSA to explore all potential options when considering data sharing
applications, including seeking legislative authority, if necessary.

CONCLUSION AND RECOMMENDATION
Based on the results of this audit, we estimate that thousands of nonimmigrants
continue working after their immigration status expires. While we recognize SSA is not
responsible for immigration enforcement, unauthorized work by nonimmigrants impacts
the Agency because it weakens SSN integrity and may require SSA to pay benefits to
these individuals in the future. Furthermore, nonimmigrants who overstay their
authorized periods of admission can affect homeland security. We recognize there is
no easy fix to this problem. However, we believe SSA has an opportunity to limit
unauthorized work by nonimmigrants.

Accordingly, we recommend that SSA continue to coordinate with DHS regarding work
authorization issues, including the potential for data sharing activities to identify and
reduce the number of nonimmigrants who continue working after their immigration
status expires.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendation. SSA also provided technical comments that we
considered and incorporated, where appropriate. The Agency’s comments are included
in Appendix C.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology and Sample Appraisal
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
DHS        Department of Homeland Security
State      Department of State
FY         Fiscal Year
GAO        Government Accountability Office
INS        Immigration and Naturalization Service
MEF        Master Earnings File
SSA        Social Security Administration
SSN        Social Security Number
US-VISIT   U.S. Visitor and Immigrant Status Indicator Technology
                                                                    Appendix B

Scope, Methodology, and Sample Appraisal
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System Transaction History File for Fiscal Year (FY) 2000. From this
extract, we identified a population of 794,678 nonimmigrants to whom SSA had
assigned original Social Security numbers (SSN). We then randomly selected and
reviewed a sample of 275 records.

For each of the sampled cases, we obtained the individual’s current immigration status
with the Department of Homeland Security or the Department of State and identified
instances where the individual’s immigration expired. We did not determine the
reliability of the information systems at these agencies.

We also analyzed the earnings reported to SSA for nonimmigrants whose immigration
status expired. We relied primarily on SSA’s Master Earnings File to perform this test
and determined the Master Earnings File data were sufficiently reliable given the audit
objective and use of the data. We also discussed possible causes of unauthorized work
by nonimmigrants with Office of Income Security Programs personnel.

The SSA entities reviewed were the Offices of the Deputy Commissioner for Operations
and the Deputy Commissioner for Disability and Income Security Programs. We
conducted our work from August 2004 through April 2005 in accordance with generally
accepted government auditing standards.




                                          B-1
Table B.1 shows our sample size, results, and appraisal.

                           Table B. 1: Sample Appraisal


           Estimate of Original SSNs Assigned to Nonimmigrants
   Who Worked After Their Immigration Status Expired or Someone Else May
         Have Used Their SSNs to Work After They Left the Country

 Total population of original SSNs that SSA assigned to nonimmigrants   794,678
 during FY 2000
 Sample Size                                                               275


 Number of instances in sample where nonimmigrants worked after their
 immigration status expired or someone else may have used their SSNs        11
 to work after they left the country.
 Point Estimate                                                          31,787
 Projection—Lower Limit                                                  17,954
 Projection—Upper Limit                                                  51,922
 Projection made at the 90-percent confidence level.




                                          B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM                                                               34217-24-1302


Date:      August 29, 2005                                                Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye           /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Impact of Nonimmigrants Who
           Continue Working After Their Immigration Status Expires" (A-08-05-15073)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report’s recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           54636.

           Attachment:
           SSA Response




                                                    C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "IMPACT OF NONIMMIGRANTS WHO CONTINUE WORKING AFTER
THEIR IMMIGRATION STATUS EXPIRES" (A-08-05-15073)


Thank you for the opportunity to review and comment on the draft report. We
appreciate your acknowledgement of the steps we have taken to establish a
cooperative communication base with the Department of Homeland Security (DHS) by
the creation of the Basic Pilot Program and the Nonwork Alien File.

Recommendation 1

The Social Security Administration (SSA) should continue to coordinate with DHS
regarding work authorization issues, including the potential for data sharing activities to
identify and reduce the number of nonimmigrants who continue working after their
immigration status expires.

Response

We agree. We will continue to coordinate with DHS regarding work authorization
issues. Regarding the second part of the recommendation (i.e., “potential for data
sharing activities”), we support, and will work to pursue, additional data sharing activities
with DHS to the extent that there is sufficient statutory authority in the Social Security
Act, the Internal Revenue Code, and the Immigration and Nationality Act.




                                            C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Lauren Butts, Auditor

   Brennan Kraje, Statistician

   Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to the Common Identification Number A-08-05-15073.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
